I'

No.

IN THE
SUPREME COURT OF THE UNITED STATES
JAMES CONERLY, MARILYN TILLMAN-CONERLY, And CARINA CONERLY PETITIONERS
V.
JOHN PATRICK WINN, SHARIF ROLDAN TARPIN, And KIANA R TURNER RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO

THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

JAMES CONERLY, MARILYN TILLMAN-CONERLY, And CARINA CONERLY

1501 AMAZON AVENUE

SACRAMENTO, CALIFORNIA 95835-1929

(916) 595-2210 or (916) 704-6755

RECEIVED
SEP - 1 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

r

QUESTION(S) PRESENTED
1.) Whether the Appellate Court erred by affirming the District Court’s
dismissal of Plaintiffs’ action on grounds that District Court lacked subject
matter jurisdiction?
2.) Whether the Appellate Court erred by rejecting Plaintiffs’ contention that the
District Court was bias against Plaintiffs by treating Defendant Sharif Tarpin
more favorably than Plaintiffs?
3.) Whether the Appellate Court erred by directing the Clerk to Seal the
Exhibits?
4.) Whether the Appellate Court erred by failing to consider Plaintiffs’ Claim of
Defendants Violating their Fourteenth Amendment Constitutional rights to
Due Process?
5.) Whether the Appellate Court abused its discretion by not finding that the
Family law Judges violated Plaintiffs’ Constitutional Rights To Due Process
by ordering Plaintiffs to not Video Tape in public?
6.) Whether the Appellate Court abused its discretion by not considering,
finding and deciding Plaintiffs’ claim that Family Law Judge John P. Winn
should have Recused or been Recused from Defendants Family Law Case?
7.) Whether the Appellate Court should have considered, found, and decided
upon Plaintiffs’ issue concerning the family Law Judges’ orders becoming a
conflict of interest problem?
l

lb

LIST OF PARTIES
PCI All parties appear in the caption of the case on the cover page.
EH All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

•

RELATED CASES
Case No. U.S. SUPREME COURT # pending. Case No. 20-16679, D.C. No. 2:20-cv-00362KJM-KJN Carina Conerly, and M.T. v. Olubunmi Olaide Awoniyi, Uduak Inyang Oduok,
Superior Court of California County of Sacramento, Sharif Roldan Tarpin, and John Patrick
Winn.

•

Case No. 20-17029, D.C. No. 2:19-cv-01021-KJM-KJN James Conerly, Carina Conerly,
Marilyn Tillman-Conerly, and M.T. v. Veracity Research Company, and Kristy Torain.

•

Case No. U.S. SUPREME COURT # 21M9. CALIFORNIA SUPREME COURT CASE # S
265069 Carina Conerly v. Sharif Roldan Tarpin.

•

Case D.C. No. 2:19-cv-02535-JAM-DB James Conerly, Carina Conerly, Marilyn TillmanConerly, and M.T. v. State of California, et al.

•

Case No. U.S. SUPREME COURT # pending. Case D.C. No. 2:21-cv-01132-TLN-CKD Carina
Conerly, and M.T. v. Julie G. Yap, Sharif R. Tarpin, Krystal Barlatt, Sacramento Superior
Court, and Forever Friends Early Learning Center LLC.

•

Case D.C. No. 2:21-cv-01076-TLN-JDP Carina Conerly, and M.T. v. David Coleman, Julie G.
Yap, Sharif Roldan Tarpin, John Patrick Winn, Sacramento Superior Court, and Kiana Turner.

ii

I

/

TABLE OF CONTENTS

OPINIONS BELOW.

1

JURISDICTION.

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-8

REASONS FOR GRANTING THE WRIT

8-9

CONCLUSION.

10

INDEX TO APPENDICES

APPENDIX A opinion of the United States Ninth Circuit Court Of Appeal
APPENDIX B The Opinion of the United States Eastern District Court of California
APPENDIX C Appellant’s Informal Opening Brief (Without Exhibits A through E)
APPENDIX D Magistrate Judge, Allison Claire’s Findings and Recommendations dated
9/15/2020
APPENDIX E Consent/Decline of U.S. Magistrate Judge Jurisdiction
APPENDIX F Defendants, Sharif Roldan Tarpin and Kiana Turner, Served on 9/21/2020
APPENDIX G Objection To Magistrate Judge’s Findings and Recommendations dated
10/02/2020
APPENDIX H Defendant, John Patrick Winn, Served on 9/29/2020
APPENDIX I Motion for Default Judgment and Affidavit in Support of Motion for Default
Judgment Upon Defendants Sharif Roldan Tarpin and Kiana R Turner
APPENDIX J

Motion for Default Judgment and Affidavit in Support of Motion for Default
Judgment Upon Defendant John Patrick Winn
1U

APPENDIX K

Newly Discovered Evidence (Without Exhibits)

APPENDIX L

Proof of Payment

APPENDIX M Order Reflecting That Payment Was Made
APPENDIX N

California Eastern District Court Docket from Pacer

APPENDIX O

United States Court of Appeals for the Ninth Circuit General Docket

APPENDIX P

Federal Rules of Appellate Procedure Ninth Circuit Rules, Circuit Rule
27-13. Sealed Documents

APPENDIX Q

18 U.S.C. § 5038(c)

APPENDIX R

18 U.S.C. § 3509(d)

APPENDIX S

Fed. R. Crim. P. 6(e)

APPENDIX T

Federal Rules of Civil Procedure, Rule 5.2

APPENDIX W

Email Carina Conerly Sent to: familylawfl@Saccourt.ca.gov on 3/23/2021

APPENDIX X

Email Carina Conerly Received from: familylawfl@Saccourt.ca.gov on
3/23/2021

APPENDIX Y

Email Carina Conerly Sent to: FCS@saccourt.ea.gov on 3/23/2021 and Email
Carina Conerly Received from: FCS@saccourt.ca.gov on 3/23/2021

APPENDIX BB Email Carina Conerly Received from: FLCopyRequest@saccourt.ca.gov on
4/23/2021
APPENDIX CC Public Case Access System Family Law Case Details on 5/26/2021
APPENDIX DD Confidentiality of Cases Filed Under the Uniform Parentage Act
APPENDIX EE

Step 1: Getting Started

APPENDIX GG 2021 California Rules of Court Rule 8.45
APPENDIX HH Family Codes 7643, and 7570« through 7581
»V

TABLE OF AUTHORITIES CITED
PAGE NO.

CASES
#1)

42 U.S.C. Section 1983 Knick V. Township ofScott, Pa. 588 U.S;
S. CL 2162 (2019)
(Government Taking allows Claim to go direct into Federal District
Court)

STATUTES AND RULES
#1)

14th Amendment (Constitutional Right to Due Process)

#2)

5th Amendment (Constitutional Right to Remain silent; Constitutional

.3

Violation under Taking Clause)

3

#3)

1st Amendment (Constitutional Right to Free Speech)

.3

#4)

42 U.S.C. Section 1985 (Conspiracy to interfere with Civil Rights)

.3

#5)

42 U.S.C. Section 1983 (Civil Action for depriving Plaintiffs of Rights
Secured by the Constitution and Laws)

3

#6)

Title VI of The 1964 (Civil Rights Act)

,3

#7)

Federal Rules of Civil Procedures Rule 5.2(a) (Privacy Protection For
Filings Made With the Court in Redacted Filings)

#8)

3

Federal Rules of Civil Procedures Rule 5.2(b) (Privacy Protection For
Filings Made With the Court Exemptions From the Redaction Requirement)
Federal Rules of Civil Procedures Rule 5.2(d)(Privacy Protection For Filing)...3
Made With the Court in Filings Made Under Seal)
v

.3

#9)

Federal Rules of Appellate Procedures Ninth Circuit Rules 27-13(a)
3

(Introduction To Sealed Documents)
#10)

Federal Rules of Appellate Procedures Ninth Circuit Rules 27-13(d)
(Presentence Reports, Grand Jury Transcripts, and Sealed Filings
Mandated by Statue or Procedural Rule)

vi

,3

OPINIONS BELOW
[ X] For cases from federal courts:
A to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at______
[ ] has been designated for publication but is not yet reported; or,
[X ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

; or,
[ ] reported at______
[ ] has been designated for publication but is not yet reported; or,
[ X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

; or,
[ ] reported at______
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1.

to

JURISDICTION
[ X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was July 2.2021.
[ X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
^ and a copy of the
Appeals on the following date:_________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
(date)
to and including____
in Application No. A.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_____ .
[ ] A timely petition for rehearing was thereafter denied on the following date:
________________ _____ , and a copy of the order denying rehearing
appears at Appendix_________ .
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including
Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
14th Amendment (Constitutional Right to Due Process)
1st Amendment (Constitutional Right to Free Speech)
42 U.S.C. Section 1985 (Conspiracy to interfere with Civil Rights).
42 U.S.C. Section 1983 (Civil Action for depriving Plaintiffs of Rights Secured by
the Constitution and Laws)
Title VI of The 1964 (Civil Rights Act)
Federal Rules of Civil Procedures Rule 5.2(a) (Privacy Protection For Filings Made
With the Court in Redacted Filings)
Federal Rules of Civil Procedures Rule 5.2(b) (Privacy Protection For Filings Made
With the Court Exemptions From the Redaction Requirement)
Federal Rules of Civil Procedures Rule 5.2(d) (Privacy Protection For Filings Made
With the Court in Filings Made Under Seal)
Federal Rules of Appellate Procedures Ninth Circuit Rules 27-13(a) (Introduction
To Sealed Documents)
Federal Rules of Appellate Procedures Ninth Circuit Rules 27-13(d) (Presentence
Reports, Grand Jury Transcripts, and Sealed Filings Mandated by Statue or
Procedural Rule)

3.

STATEMENT OF THE CASE
On August 27.2020. Judge John Patrick Winn issued his “Findings and Order After Hearing”
which affected Plaintiffs Carina Conerly, M.T., James Conerly, and Marilyn Tillman-Conerly. The
order stated in part, “All exchanges shall take place in the parking lot of South Natomas Library
and Park on Truxei Road in Sacramento. There shall be no videotaping or photographing of
custody exchanges without the agreement of both parents. All prior orders, not in conflict with
this report this report, shall remain in full force and effect.” (Exhibit A within Appendix C).
On July f1.2020 minor M.T. was in the custody of defendants, her father Sharif Roldan
Tarpin and Kiana Turner when minor M.T. was severely injured. Defendants Sharif Tarpin and
Kiana Turner failed to take minor M.T. to the hospital emergency room. When Plaintiffs Carina
Conerly, James Conerly, and Marilyn Tillman Conerly arrived to pick minor M.T. up, defendant
Sharif Roldan Tarpin was acting rather strangely when he walked minor M.T. over to the car where
all Plaintiffs were waiting. Kiana Turner aided and abetted Sharif Tarpin (Exhibit B within
Appendix C). She also purposely put coconut oil into M.T’s. hair, purposely, because Sharif Tarpin
knew that Carina Conerly was allergic to coconut. Kiana Turner provided her vehicle for Sharif
Tarpin to use because his vehicle reeked with Marijuana (Exhibit C within Appendix C). Sharif
Tarpin smokes Marijuana while he is driving and parked in public. Kiana assisted Sharif in
covering-up the injuries done to M.T. Both of them knew and know that M.T. is not provided
adequate living arrangements (Exhibit D within Appendix C). Without asking, M.T. constantly
tells us that she doesn’t want to go with Sharif. She is saddened when we drop her off. John Patrick
Winn is assisting Sharif Tarpin. John Patrick Winn not only assist Sharif Tarpin and Kiana Turner,
he makes orders to enforce Carina Conerly, Marilyn Tillman-Conerly, and James Conerly to turn
over M.T. to Sharif Tarpin and Kiana Turner. John Patrick Winn continues to violate all Plaintiffs
4.

from exercising our 1st Amendment rights to free speech and due process (Exhibit A within
Appendix C). We can’t videotape anyone at the exchange (Police) Sharif Tarpin, Kiana Turner, and
Sharif Tarpin’s family and friends, etc., who also aided and abetted Sharif Tarpin, to include she
provides his transportation (Exhibit E within Appendix C). He wants to stop evidence of Sharif
Tarpin’s bad conduct. The photos showed Sharif Tarpin’s wrong doings and bad conduct. My court
hearings are continuously violated when John Patrick Winn continues to not Recuse himself (Exhibit
A, C, D within Appendix C). He sometimes allows James Conerly and Marilyn Tillman-Conerly to
testify as witnesses; however, John Patrick Winn takes no credibility in James Conerly’s and Marilyn
Tillman-Conerly’s’ Testimony about Sharif Tarpin. May 20,2020 and July 16,2020, Judge John
Patrick Winn wouldn’t allow Plaintiffs James Conerly and Marilyn Tillman-Conerly to testify as
witnesses for Carina Conerly. All Defendants strategically orchestrated and or agreed to put together
tactics to violate all Plaintiffs Civil Rights. All Defendants acts directly affects and are done in bad
interest of M.T., for example, Judge John Patrick Winn’s order concerning M.T.’s health violates
M.T.’s medical diagnosis, treatment, and provisions because M.T. cannot get her regular doctor’s
check-up and Treatments (Exhibit A, D within Appendix C). After our lawsuits the State of
California and other Defendants; here again Defendant Sharif Tarpin came into the picture. Sharif
Tarpin has never gotten involved in the past four years with M.T.’s doctor concerns. The only time
he was present before Doctor Candace Jones, who is M.T.’s Pediatric Doctor, was when M.T. was
bom. He has abandoned M.T. in her health support; that is why my father, James Conerly, stepped up
to the plate to attend every visit with Doctor Candace Jones with myself and M.T. to ensure M.T. got
the best of medical treatment. My father, James Conerly, and my mother, Marilyn Tillman-Conerly,
are very good help with M.T., not only in medical needs, but all other needs and support when it
comes to the best interest of M.T., and not to forget Black Issues, which none of the aforementioned
5.

Defendants can give to her, and these needs are so many today, that Defendants will never
experience nor know. All of these Defendants do not care the least bit about M.T. but acts to serve
their own, and each other’s interests and purpose, and interests (which we choose not to list at this
time). That is why we are fighting with all our legal Constitutional Rights to help M.T., not us so
much. We want to show the surprising evidence that we now have and that is coming, Please? To
include Doctor Candace Jones as a witness. Because again, my father has been at every doctor’s
appointment with M.T. and Carina Conerly. James Conerly is confirming what he has done with
Carina Conerly because he truly and faithfully cares and practices what he preaches “Good
Conduct” of a Godly Father to his children and his Grand-Children. That’s in the best interest of
M.T. M.T. is only now being hindered from having a good and healthy life, that is free from drugs
abuse, alcohol abuse, Marijuana abuse and many other bad behaviors. Why is it that she sustained
injuries now and it has been caused by Sharif Tarpin in such short time that she has been in his
custody? Has anyone noticed this? other than Plaintiffs? We are the ones who knows why,
because we know that Sharif Tarpin’s conduct is nothing but bad and we will do everything^ to
expose this truth. Observe SharifTarpin’s friends (Exhibit C within Appendix C). Observe
Sharif Tarpin’s automobile. Observe the kinds of places Sharif Tarpin goes out to. Observe
Sharif Tarpin associates, check-out SharifTarpin’s blood test; simply, just observe his conduct.
Maybe someone else should find his need for weapon (Exhibit C within Appendix C)a
especially, since he has been caught with a concealed weapon with no weapon permit (Exhibit C
within Appendix C).
On September 15,2020, Eastern District Court Judge A.C. signed her Findings and
Recommendations to Dismiss Plaintiffs’ Case for Lack of Subject Matter Jurisdiction
(Appendix D).
6.

On September 21,2020, Defendants Sharif Roldan Tarpin and Kiana Turner were served
(Appendix F).
On September 28,2020, Plaintiffs “Declined” to have Magistrate Judge handling
Plaintiffs’ case (Appendix E).
On October 2,2020, Plaintiffs filed Objection to Magistrate Judge Claire’s findings and
recommendations(Appendix G).
On October 5,2020, Sacramento, California Superior Court Family Law Judge John
Patrick Winn was served upon by Plaintiffs Server on 9/29/2020 (Appendix H).
On October 14,2020, The Eastern District Court Judge John A Mendez Ordered that the
findings and recommendations filed September 16,2020, were adopted in full, and this case is
dismissed for lack of subject matter jurisdiction.
On October 15,2020, Clerk of Court Keith Holland entered and by: /s/ K. Zignago,
Deputy Clerk “THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT’S ORDER FILED ON 10/15/2020.
On October 13,2020, Kiana Turner and Sharif R. Tarpin were served Plaintiffs’ Motion
for default Judgment and Affidavit in Support (Appendix !)•
On December 21,2020, Plaintiffs filed Informal Opening Briefs in the United States
Court of Appeals For The Ninth Circuit (Appendix C).
On October 22,2020, Sacramento, California Superior Court Family Law Judge John P.
Winn was served with Plaintiffs’ Motion for default Judgment and Affidavit in Support
(Appendix J).
On December 28,2020, Newly Discovered evidence (Note: Plaintiffs had signed Newly
7.

Discovered Evidence on October 28,2020) (Appendix K).
On December 28,2020, Plaintiffs Proved that Payment of $505.00 had already been made
on October 30,2020 because the Courts had erroneously decided that Plaintiffs had not made for
the Appeal (Appendix L).
On January 6,2021, Order from Ninth Circuit Court reflected that payment for $505.00
had been made for filing and docketing fees (Appendix M).
On July 2,2021 a Memorandum was filed; the United States Court of Appeals for The
Ninth Circuit, Without Oral Argument, Rejected Plaintiffs’ allegations that the District Court
was biased, Affirmed “district court’s dismissal for lack of subject matter jurisdiction”.
(Appendix A).
This Case resulted because the Administrative Stage Violated Plaintiffs’ Due Process
Rights under the United States Constitution.
REASONS FOR GRANTING THE PETITION
Under Article HI. Section H the United States Supreme Court establishes the
jurisdiction (legal ability to hear a case) cases involving points of Constitutional and, or,
Federal Law, such as the case at hand involves issues of Civil Rights Violation. Furthermore,
that jurisdiction of this Court takes in Cases concerning State Courts violating well established
laws governing Constitutional Right to Due Process controversy concerning equal rights
within the Courts, right to litigate, Federal Lower Courts’ Judges and staff differential treatment
of Black Americans, even joining with the Non-Blacks in providing defense in favor of the NonBlack. This is done by such means of unjustly granting Non-Black Americans Dismissals of
Black Americans Cases; unwarranted and wrongful jurisdictional rulings and orders that was
8

done in the “best interest” of Respondent Sharif Tarpin, rather than minor M.T. (e.g., allowed
respondent Sharif Tarpin to interrupt during hearings but the Judge would not let Petitioner finish
her testimony The Judge was leading answers and statement (e. g. lead by Judge Winn after
asking Respondent, the question, court’s staff assisted Respondent Sharif Tarpin with
processing legal documents, Respondent Sharif personally stated the Judges and
policemen and policewomen were acting in his favor). These techniques are also very
sophisticated, well financially funded, well planned, and etcetera, by the local
government (federal and state). Unfortunately, SYSTEMIC RACISM is a proper
representation of these acts of the local government Judicial System upon Black
American Petitioners Carina Conerly, James Conerly, and Marilyn Tillman-Conerly
trying to get redress of wrongful injuries and damages brought by others, with the
MAJOR ISSUE BEING DEFENDANTS VIOLATED APPELLANTS’/ PETIONERS’
CONSTITUTIONAL DUE PROCESS RIGHTS BY WORKING TOGETHER AND
INTENTIONALLY CAUSING HARM TO PLAINTIFFS AND DAMAGE TO
PLAINTIFFS’ PROPERTY. Moreover, the covertness in the local judicial system here,
used to continue to avoid and stop Black Americans from pursuing justice within these
local courts systemic. Plaintiffs have, in the past and within this case at hand, found the
Administrative Stages Are Not, In Reality, A Just Nor Equal Means For Black
Americans To Resolve Their Lawful And Legal Issues. In Short, The
Administrative Stage Here In California Is Very Adversarial Toward Black
Americans.
9.

CONCLUSION
Petitioners hereby respect the United States Supreme Court, Court's Officers, Court’s Staff and
Others that are involved in handling of this case, the Petition for a Writ of Certiorari should be
granted.

Respectfully submitted,

Marilyn Tillman-Conerly
Date: August 27,2021

Date: August 27,2021

10.

Carina Conerly
Date: August 27,2021

